                                                                OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 5) Version 5.0a
                   Reporting OIG: Small Business Administration - OIG
               Month Ending Date: 07/31/2010

                                                                  Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau             Recovery Act TAFS     Award Type       US Indicator       Total Obligations       Total Gross         Direct or       Ordering TAFS
No.                                                                                                                          Outlays         Reimbursable
      Small Business Administration - (73-0201 2009 \             Other            Y - US             $639,891              $639,891
      OIG                             2013) Small Business
                                      Adminstration - OIG -
                                      Recovery Act
 1                                                                                                                                         Direct
      Small Business Administration - (73-0201 2009 \       Contracts and          Y - US            $1,711,658            $922,692
      OIG                             2013) Small Business Orders (including
                                      Adminstration - OIG - modifications)
                                      Recovery Act
 2                                                                                                                                         Direct
 3
 4
 5
 6
 7
 8

                                                     Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau               FY 2009 Non-        Total FY 2009    Total FY 2009   FY 2010 Non-Recovery      Total FY 2010      Total FY 2010
No.                                      Recovery Act TAFS      Obligations     Gross Outlays         Act TAFS             Obligations       Gross Outlays
      Small Business Administration -   (73-0200 2009) Small         $330,300         $330,300 (73-0200 2010) Small             $665,713            $665,713
      OIG                               Business                                               Business Adminstration -
 1                                      Adminstration - OIG                                    OIG
 2
 3
 4
 5
 6
 7
 8
                                      OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 2 of 5) Version 5.0a
    Reporting OIG: Small Business Administration - OIG

Month Ending Date: 7/31/2010


                                                           Fiscal Year 2009
                                                                         Monetary Results - Audits, Inspections,
                           Monetary Results -Investigations
                                                                                      Reviews*

                                                                              Questioned Costs
                             Recoveries (FY 09):                 $0.00                                     $0.00
                                                                                       (FY 09):


                                                                         Unsupported Costs
                   Forefeitures/Seizures (FY 09):                $0.00                                     $0.00
                                                                                   (FY 09):

                                                                          Recommendations
                      Estimated Savings (FY 09):                 $0.00      for Better Use of              $0.00
                                                                               Funds (FY 09):



                                                         Fiscal Year 2010
                                                                        Monetary Results - Audits, Inspections,
                           Monetary Results -Investigations
                                                                                     Reviews*

                                                                              Questioned Costs
                             Recoveries (FY 10):                 $0.00                                     $0.00
                                                                                       (FY 10):


                                                                         Unsupported Costs
                   Forefeitures/Seizures (FY 10):                $0.00                                     $0.00
                                                                                   (FY 10):

                                                                          Recommendations
                      Estimated Savings (FY 10):                 $0.00      for Better Use of              $0.00
                                                                               Funds (FY 10):



                                                  Cumulative Since 2/17/2009
                                                                     Monetary Results - Audits, Inspections,
                           Monetary Results -Investigations
                                                                                  Reviews*

                                                                              Questioned Costs
                        Recoveries (cumulative):         $0.00                                     $0.00
                                                                                 (cumulative):


                           Forefeitures/Seizures                         Unsupported Costs
                                                         $0.00                                     $0.00
                                   (cumulative):                              (cumulative):

                                                                          Recommendations
                               Estimated Savings
                                                         $0.00              for Better Use of      $0.00
                                    (cumulative):
                                                                         Funds (cumulative):
                                                                                              OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 3 of 5) Version 5.0a
        Reporting OIG: Small Business Administration - OIG
    Month Ending Date: 7/31/2010

                            FTE Working on Recovery
                                                                                                                                        Testimonies:
      Fiscal Year              2009            2010             Cumulative
       Newly Hired FTE
                              0.94              3.79                4.73                                                        Provided (monthly):        0
         (cumulative):

FTE Funded by Recovery
                              1.35              4.54                5.89                                                      Provided (cumulative):       0
 Act Funds (cumulative):

     FTE Not Funded by
    Recovery Act Funds        3.00              5.68                8.68
          (cumulative):

                                                                                                                            Audits / Inspections / Evaluations /
               Complaints                        Whistleblower Reprisal Allegations                Investigations                                                        Training / Outreach
                                                                                                                                          Reviews
             Monthly Data                                    Monthly Data                          Monthly Data                        Monthly Data                         Monthly Data

                                                                                                                                                                         Training Sessions
              Received:         0                                     Received:       0      Opened (this month):     0       Initiated (this month):      0                                   0
                                                                                                                                                                                 Provided:

                                                                                           Active (as of the end of         In Process (as of the end
                                                                     Accepted:        0                               4                                    7          Individuals Trained:     0
                                                                                                       the month):                    of the month):
                                                                                                                                    Completed Final
                                                                                                                                                                        Hours of Training
                                                                                                Pending Decision:     0              Published Work        0                                   0
                                                                                                                                                                               Provided:
                                                                                                                                            Products:
                                                                                                                                     Priority Interim
                                                                                                                                                                       Outreach Sessions
                                                                                            Closed without Action:    0              Published Work        0                                   0
                                                                                                                                                                             Conducted:
                                                                                                                                            Products:
                                                                                                                                  Unpublished Work
                                                                                            Prosecution Declined:     0                                    0
                                                                                                                                          Products*:

                                                                                          Referred for Alternative
                                                                                                                      0                QCRs Issued:        0
                                                                                                      Resolution:

                                                                                                     Convictions,
                                                                                              Settlements, Pleas,      0
                                                                                                      Judgments:
   Cumulative Data Since 2/17/2009                Cumulative Data Since 2/17/2009         Cumulative Data Since 2/17/2009   Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009
                                                                                                                                  Completed Final
                                                                                                                                                                         Training Sessions
              Received:        21                                     Received:       0     Closed without Action:    1           Published Work       19                                      0
                                                                                                                                                                                 Provided:
                                                                                                                                         Products:
                                                                                                                                   Priority Interim
                                                                     Accepted:        0     Prosecution Declined:     0           Published Work        0             Individuals Trained:     0
                                                                                                                                         Products:

                                                                                          Referred for Alternative                Unpublished Work                      Hours of Training
                                                                                                                      0                                    0                                   0
                                                                                                      Resolution:                        Products*:                            Provided:

                                                                                                      Convictions,
                                                                                                                                                                       Outreach Sessions
                                                                                               Settlements, Pleas,    0                QCRs Issued:        0                                   3
                                                                                                                                                                             Conducted:
                                                                                                       Judgments:

                                                                                                Cumulative Total:     1           Cumulative Total:       19
                                                    OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 5) Version 5.0a
      Reporting OIG: Small Business Administration - OIG
  Month Ending Date: 07/31/2010

        No.                       OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                      Ongoing reviews as of the end of the month included: (1) Review of Early Problem/Defaulted 7(a) Recovery Act Loans; (2)
                      Audit of Price Reasonableness of Small Business Administration’s Firm-Fixed Price Contracts; (3) SBA’s Oversight of
         1            High Risk Lenders Making Recovery Act Loans; (4) Contractor Reviews of Recovery Act Loans; (5) FY 2010 Financial
                      Statement Audit; (6) Review of ARC Loan Program: and (7) Award and Administration of Information Technology
                      Contracts under the Recovery Act.
         2
         3
         4
         5
         6
         7
         8
         9
        10

        No.                           OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
         1            See FY 2010 Recovery Act Work Plan available at www.sba.gov/ig/recovery.
         2
         3
         4
         5
         6
         7
         8
         9
        10
                                                              OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 5 of 5) Version 5.0a
  Reporting OIG: Small Business Administration -
   Month Ending 07/31/2010

                                                                           TRAINING ACTIVITIES
                                                                                                                                                  Hours of
                                                                                            Training                   Length of                  Training
                                                                                                            Date of                 Number of                   Cost of
      No.               Type of Training           Target Audience    Title of Training   Location (City,               Training                 Provided
                                                                                                            Training               Participants                 Training
                                                                                              State)                    (hours)                   (length x
                                                                                                                                                participants)
      1                                                                                                                                                     0
       2                                                                                                                                                    0
       3                                                                                                                                                    0
       4                                                                                                                                                    0
       5                                                                                                                                                    0
       6                                                                                                                                                    0
       7                                                                                                                                                    0
       8                                                                                                                                                    0
       9                                                                                                                                                    0
      10                                                                                                                                                    0
      11                                                                                                                                                    0
      12                                                                                                                                                    0
      13                                                                                                                                                    0
      14                                                                                                                                                    0
      15                                                                                                                                                    0
                                                                                                                        TOTAL                 0             0

                                                   OUTREACH ACTIVITIES
                                                      Number of
                                                                                            Outreach
                     Organization to which          Organizations     Description of                         Date of
      No.                                                                                 Location (City,
                      Outreach Provided             Represented at      Outreach                            Outreach
                                                                                              State)
                                                   Outreach Session
       1
       2
       3
       4
       5
       6
       7
       8
       9
      10
